      Federal Labor Relations Authority
      OFFICE OF INSPECTOR GENERAL




Office of Inspector General
Semiannual Report to Congress
April 1, 2012 – September 30, 2012




                                 Federal Labor Relations Authority
                 1400 K Street N.W., Suite 250 Washington, D.C. 20424
                                                                 Table of Contents

  Executive Summary ............................................................................................ 2
  Federal Labor Relations Authority Overview .............................................. 3
    Mission .................................................................................................................... 3
    Organization ...........................................................................................................3
  Office of Inspector General ............................................................................... 6
  Office of Inspector General Activities ............................................................. 7
    Audits and Evaluations .......................................................................................... 7
    Investigations ......................................................................................................... 7
    Other Activities .......................................................................................................9
  Reporting Requirements of the Inspector General Act of 1978, as
  Amended ............................................................................................................... 11
  FY 2012 Freedom of Information Act Requests .........................................13
    TABLE I Summary of Audit Reports with Corrective Actions Outstanding for
    More than 1 Year................................................................................................... 14
    TABLE II Listing of Audit Reports Issued ........................................................... 14
    TABLE III Reports with Questioned Costs .......................................................... 15
    TABLE IV Recommendations that Funds Be Put to Better Use ......................... 16
  APPENDIX A Acronyms and Abbreviations................................................ 17
  APPENDIX B Definitions of Terms Used .................................................... 18




48TH SEMIANNUAL REPORT TO CONGRESS                               i                   APRIL 1, 2012 – SEPTEMBER 30, 2012
                                     Executive Summary
  This Semiannual Report, submitted pursuant to Section 5 of the Inspector
  General Act of 1978, as amended, summarizes the major activities and
  accomplishments of the Federal Labor Relations Authority (FLRA) Office of
  Inspector General (OIG) for the period April 1, 2012 to September 30, 2012. The
  most significant activities of the OIG during the second half of Fiscal Year (FY)
  2012 are noted below. Additional details pertaining to each activity can be found
  in subsequent sections of this report.

  During this reporting period, the OIG initiated the annual audit of the FLRA’s FY
  2012 Financial Statements (AR-13-01); and the FLRA’s Federal Information
  Security Management Act Evaluation for FY 2012 (ER-13-01 compliance reviews
  and the annual Quality Assurance Review of the FLRA OIG (ER-13-02). Also,
  during the semiannual reporting period, the FLRA OIG completed a peer review
  of the Election Assistance Commission OIG and issued a report and a Letter of
  Comment.

  The FLRA Inspector General received 107 complaints and 27 Freedom of
  Information Act requests in FY 2012. Of the 107 complaints received, the OIG
  resolved 66 of the complaints, referred 9 to other OIG’s and forwarded 32 to
  other FLRA offices.




48TH SEMIANNUAL REPORT TO CONGRESS        2            APRIL 1, 2012 – SEPTEMBER 30, 2012
                           Federal Labor Relations
                               Authority Overview
  Mission

  The mission of the Federal Labor Relations Authority (FLRA) is to carry out the
  five primary statutory responsibilities as efficiently as possible and in a manner
  that gives full effect to the rights afforded employees and agencies under the
  Federal Service Labor-Management Relations Statute (the Statute). Under the
  Statute, the primary responsibilities (type of cases) of the FLRA include:

     (1) Determining the appropriateness of units for labor organization
         representation (REP);

     (2) Adjudicating exceptions to arbitrator’s awards (ARB);

     (3) Resolving complaints of unfair labor practices (ULP);

     (4) Resolving bargaining impasses; and

     (5) Resolving issues relating to the duty to bargain (NEG).

  Organization

  The FLRA conducts it case processing activities through:

       The Office of the General Counsel (OGC) of the Authority – led by the
        General Counsel, who is appointed by the President and confirmed by the
        Senate – which, through regional offices, is the entry point for ULP
        charges filed with the FLRA. The OGC also processes REP petitions filed
        with the FLRA and decides appeals of Regional Directors’ decisions
        dismissing ULP charges.



48TH SEMIANNUAL REPORT TO CONGRESS         3            APRIL 1, 2012 – SEPTEMBER 30, 2012
       The Office of Administrative Law Judges is the office in which judges
        appointed by the Authority conduct administrative hearings and issue
        recommended decisions in cases involving alleged ULPs and issue
        decisions involving applications for attorney fees under the Back Pay Act
        or the Equal Access to Justice Act.

       The Authority is a quasi-judicial body (with three full-time Members --one
        of which serves as the FLRA Chairman-- appointed by the President and
        confirmed by the Senate), that resolves appeals in ULP and REP cases and
        adjudicates exceptions to ARB awards and NEG appeals.

       The Federal Service Impasses Panel, which consists of up to seven part-
        time members appointed by the President (without Senate confirmation),
        resolves impasses between Federal agencies and unions representing
        Federal employees under the Statute and the Federal Employees Flexible
        and Compressed Work Schedules Act.

       The FLRA also provides full staff support to two other entities: the
        Foreign Service Impasse Disputes Panel and the Foreign Service Labor
        Relations Board (FSLRB).

  The Chairman is the head of the Agency and also serves as FLRA’s Chief
  Executive and Administrative Officer, overseeing all agency-wide administrative
  functions.

  In carrying out statutory responsibilities, the Chairman oversees the following
  offices:

       The Office of the Executive Director, which provides agency-wide
        operational support through the following divisions: Budget and Finance,
        Administrative Services, and Information Resources Management.

       The Office of the Solicitor, which represents the agency in court
        proceedings before all United States Courts and provides the Chairman
        legal advice on various legal issues.



48TH SEMIANNUAL REPORT TO CONGRESS         4            APRIL 1, 2012 – SEPTEMBER 30, 2012
       The Office of Human Resources, which is responsible for providing
        agency-wide Human Resource services, and leading human capital
        management efforts pursuant to the FLRA Strategic Plan.



                        FLRA Organization Chart

                                                       AUTHORITY
                                                      CHAIRMAN AND
                                                          CHIEF
                                                        EXECUTIVE
                                                         OFFICER




         FOREIGN
         SERVICE            FOREIGN         FEDERAL
                                                                       OFFICE OF             AUTHORITY
          LABOR             SERVICE         SERVICE                                                                GENERAL
                                                                      INSPECTOR               MEMBERS
        RELATIONS           IMPASSE        IMPASSES                                                                COUNSEL
                                                                       GENERAL                   (2)
          BOARD         DISPUTES PANEL       PANEL




                                                                                           CHIEF COUNSELS
                                                                                                                   REGIONAL
                                                                                            (ONE TO EACH
                                                                                                                    OFFICES
                                                                                              MEMBER)
                                                                                                                      (7)
                                                                                               & STAFF




           EQUAL                                                                                                 COLLABORATION
                         OFFICE OF THE    OFFICE OF THE                                    CHIEF COUNSEL              AND
        EMPLOYMENT                                                   OFFICE OF THE
                          EXECUTIVE      ADMINISTRATIVE                                        TO THE             ALTERNATIVE
        OPPORTUNITY                                                   SOLICITOR
                           DIRECTOR        LAW JUDGES                                        CHAIRMAN               DISPUTE
         PROGRAM
                                                                                                                  RESOLUTION
                                                                                                                   PROGRAM




                                          INFORMATION                                                    CASE INTAKE
       ADMINISTRATIVE     BUDGET AND                                                   HUMAN
                                           RESOURCES                                                         AND
         SERVICES           FINANCE                                                  RESOURCES
                                          MANAGEMENT                                                     PUBLICATION
          DIVISION          DIVISION                                                  DIVISION
                                             DIVISION                                                      DIVISION




48TH SEMIANNUAL REPORT TO CONGRESS                          5                         APRIL 1, 2012 – SEPTEMBER 30, 2012
                     Office of Inspector General
  The Inspector General Act of 1978, as amended (hereafter referred to as the IG
  Act), requires the FLRA and other small agencies to establish an OIG. FLRA is a
  designated Federal entity under the IG Act of 1978, as amended. The Dodd-
  Frank Wall Street Reform and Consumer Protection Act (P.L. 111-203) altered the
  relationship of the designated Federal entity Offices of Inspectors General with
  the agency head by establishing that the term “head of the designated Federal
  entity” for FLRA “means the members of the Authority.” In accordance with the
  Dodd-Frank Act, we submit this report to the Chairman and Authority Members.

  The FLRA OIG is responsible for:
    (1) conducting and supervising audits and investigations relating to FLRA
        programs and operations;
     (2) reviewing legislation;
     (3) recommending policies designed to promote economy, efficiency, and
         effectiveness of the establishment; and
     (4) keeping the Chairman, Authority Members, and Congress fully and
         currently informed about problems and deficiencies, as well as the
         necessity for corrective actions.

     To aid the OIG in accomplishing its mission, the OIG was provided an
     administrative assistant.

                        OIG Organization Chart
                                         INSPECTOR
                                          GENERAL




                        ADMINISTRATIVE                  OPERATIONAL
                          ASSISTANT                       SUPPORT
                                                     - COUNSEL TO THE IG
                                                     - CONTRACTOR




48TH SEMIANNUAL REPORT TO CONGRESS           6               APRIL 1, 2012 – SEPTEMBER 30, 2012
                      Office of Inspector General
                                        Activities
  Audits and Evaluations

  In accordance with the IG Act, the FLRA OIG conducts, supervises and
  coordinates audits and evaluations relating to the programs and operations of the
  FLRA.

  Ongoing Audits and Evaluations

         (1)    Financial Statement Audit of the Federal Labor Relations Authority
                for Fiscal Year 2012 (AR-13-01); and

         (2)    Evaluation of the Federal Labor Relations Authority Compliance
                with the Federal Information Security Management Act Fiscal Year
                2012 (ER-13-01).

  Investigations
  The FLRA OIG receives and investigates allegations of fraud, waste, abuse and
  misconduct within FLRA programs and operations. The FLRA OIG investigations can
  give rise to administrative, civil and criminal penalties. Based on investigations
  conducted, the FLRA IG issues a report that sets forth the allegations and an objective
  description of the facts to FLRA management regarding administrative and civil
  matters. Investigations which uncover potential criminal activity are referred to the
  Department of Justice. As of the end of the semiannual reporting period, the OIG had
  no open investigations.

  OIG Hotline

  In order to facilitate reporting of allegations, FLRA OIG maintains a hotline (see
  “Contacting the Office of Inspector General”). Callers who have general questions or
  concerns that do not fall within the OIG’s jurisdiction are referred to other entities, such
  as other FLRA offices, Federal agencies and local or state governments.




48TH SEMIANNUAL REPORT TO CONGRESS              7             APRIL 1, 2012 – SEPTEMBER 30, 2012
  During FY 2012, we received 107 hotline complaints. These hotline complaints were
  received via the following methods: 20 telephone calls, 83 email or internet/intranet
  responses and 4 anonymous letters/contact.

  Figure 1: Complaint Methods received by the FLRA OIG during the second half of the reporting
            period.


                                Complaint Method
                                  4%

                                       19%
                                                           Hotline Telephone Calls


                            77%                            Hotline Email or
                                                           Internet/Intranet Responses

                                                           Anonymous Letters/Contact




  Figure 2: FLRA OIG Hotline disposition during the first half of the reporting period.

                                       OIG Hotline

                          30%                                 Resolved by FLRA OIG


                                             62%              Referred to Other OIG
                       8%
                                                              Forward to Other FLRA
                                                              Office




  During the second half of the reporting period, the OIG resolved 66 of the
  complaints, referred 32 to other FLRA offices and referred 9 to other OIGs.




48TH SEMIANNUAL REPORT TO CONGRESS                 8             APRIL 1, 2012 – SEPTEMBER 30, 2012
  Other Activities

  Peer Review

  Offices of Inspectors General who perform audits are required to perform (and
  undergo) reviews of other OIG offices on a 3-year cycle. Peer reviews are
  conducted of an OIG audit organization’s system of quality control in accordance
  with the Council of Inspectors General on Integrity and Efficiency (CIGIE) Guide
  for Conducting External Peer Reviews of the Audit Organizations of Federal
  Offices of Inspector General, based on requirements in the Government Auditing
  Standards (Yellow Book). Federal audit organizations can receive a rating of
  pass, pass with deficiencies, or fail.

  Section 989C of the Dodd-Frank Wall Street and Consumer Protection Act of
  2010 contains additional semiannual reporting requirements pertaining to peer
  review reports. Federal Inspectors General are required to engage in peer review
  processes related to audit operations. In keeping with Section 989C, our office is
  reporting the following information related to its peer review activities. These
  activities cover our role as both the reviewed, and the reviewing OIG.

  Peer Review Planned on FLRA OIG Audit Operations

  The FLRA OIG is not currently scheduled for a peer review. The next peer review
  to be conducted on the FLRA’s OIG system of quality control is projected for FY
  2014. The most recent peer review was completed on June 9, 2011 with a rating
  of a pass.

  Peer Review of Election Assistance Commission OIG by FLRA OIG

  FLRA OIG conducted an external quality control review of the Election
  Assistance Commission (EAC) OIG audit organization and issued a final report
  on July 31, 2012. The EAC OIG received a peer review rating of pass. Included
  with the report was a Letter of Comment. A copy of the external quality control
  review report in its entirety can be viewed on the EAC OIG website at:
  http://www.eac.gov/inspector_general/peer_review_reports.aspx




48TH SEMIANNUAL REPORT TO CONGRESS         9            APRIL 1, 2012 – SEPTEMBER 30, 2012
  Memorandum of Understanding

  The OIG signed a Memorandum of Understanding with the Election Assistance
  Commission OIG to perform a peer review of the audit organization’s system of
  quality control. The FLRA issued an opinion to the EAC OIG on July 31, 2012.

  Regulatory Review

  Section 4(a)(2) of the Inspector General Act of 1978, as amended, requires the
  OIG to review existing and proposed legislation and regulations relating to FLRA
  programs and operations of FLRA. During this reporting period the OIG did not
  review any legislation and regulations relating to FLRA.

  Liaison Activities

  The IG is a member of the CIGIE, which was established on October 14, 2008,
  pursuant to the Inspector General Reform Act of 2008. Additionally, the FLRA
  IG is a member of the Inspection and Evaluation Committee.




48TH SEMIANNUAL REPORT TO CONGRESS        10           APRIL 1, 2012 – SEPTEMBER 30, 2012
        Reporting Requirements of the
      Inspector General Act of 1978, as
                             Amended
  The reporting requirements of the Inspector General Act of 1978, as amended,
  are listed in the following table along with the location of the required
  information. The word “None” appears where there is no data to report under a
  particular requirement.


      Reference                      Reporting Requirement                      Page


   Section 4(a)(2)   Review of legislation and regulations                       p.10


                     Significant problems, abuses, and deficiencies relating
   Section 5(a)(1)                                                              None
                     to the administration of programs and operations

                     Recommendations with respect to significant problems,
   Section 5(a)(2)                                                              None
                     abuses or deficiencies
                     Recommendations included in previous semiannual
   Section 5(a)(3)   reports on which corrective action has not been             p.14
                     completed (TABLE I)

   Section 5(a)(4)   Matters referred to prosecutive authorities                None


   Section 5(a)(5)   Summary of reports                                         None


   Section 5(a)(6)   Listing by subject of audit reports issued (TABLE II)       p.14




48TH SEMIANNUAL REPORT TO CONGRESS          11           APRIL 1, 2012 – SEPTEMBER 30, 2012
         Reference                            Reporting Requirement                    Page


      Section 5(a)(7)      Summary of significant reports                              None


                           Statistical table – Reports with questioned costs
      Section 5(a)(8)                                                                   p.15
                           (TABLE III)

                           Statistical table – Recommendations that funds be put
      Section 5(a)(9)                                                                   p.16
                           to better use (TABLE IV)

                           Summary of each audit report, inspection report, and
      Section 5(a)(10)                                                                 None
                           evaluation report without management decisions

                           Description and explanation of revised management
      Section 5(a)(11)                                                                 None
                           decision

                           Management decision with which the IG is in
      Section 5(a)(12)                                                                 None
                           disagreement
                           Information under section 05(b) of the Federal
      Section 5(a)(13)     Financial Management Improvement Act (FFMIA) of             None
                           1996 1

      Section 5(a)(14)     Peer Review Activity                                          p.9




  1   FLRA is not subject to the requirements of the FFMIA.


48TH SEMIANNUAL REPORT TO CONGRESS                      12      APRIL 1, 2012 – SEPTEMBER 30, 2012
       FY 2012 Freedom of Information
                         Act Requests
  Number of Freedom of Information Act (FOIA) Requests Received                27
  Number of FOIA Requests Processed                                            27
  Number Granted                                                               12
  Number Partially Granted
  Number Not Granted                                                           15
  Reasons for Denial
  No Records Available                                                         15
  Referred to Other Agencies
  Requests Denied in Full Exemption 3
  Requests Denied in Full Exemption 5
  Requests Denied in Full Exemption 7(A)
  Requests Denied in Full Exemption 7(C)
  Request Withdrawn
  Not a Proper FOIA Request
  Not an Agency Record
  Duplicate Request
  Other
  Requests for OIG Reports from Congress and Other Government Agencies
  Received
  Processed
  Number of OIG Reports/Documents Released in Response to Requests




48TH SEMIANNUAL REPORT TO CONGRESS         13          APRIL 1, 2012 – SEPTEMBER 30, 2012
  TABLE I - Summary of Audit Reports with
  Corrective Actions Outstanding for More Than 1
  Year
                                                        Recommendations
                              Report       Issue
       Report Title                                 Number        Close       Open
                              Number       Date

  Report on Evaluation      FY09FISMA      07/09       16          12           4
  of FLRA’s FISMA
  Compliance




  TABLE II - Listing of Audit Reports Issued

                                                                           Funds Put
 Report       Issue                       Questioned     Unsupported        to Better
 Number       Date        Report Title      Costs           Costs              Use

              No audit reports were issued during this reporting period.




48TH SEMIANNUAL REPORT TO CONGRESS        14           APRIL 1, 2012 – SEPTEMBER 30, 2012
  TABLE III - Reports with Questioned Costs
  The following statistical table summarizes the OIG monetary
  recommendations and the FLRA responses to those recommendations.


                                      Number of    Questioned      Unsupported
                                       Reports       Costs            Costs
  A. For which no management
     decision has been made by the
     commencement of the                  0           $0                  $0
     reporting period.

  B. Which were issued during the         0           $0                  $0
     reporting period.
                  Subtotals (A+B)        0            $0                  $0

  C. For which a management
     decision was made during the         0           $0                  $0
     reporting period.

     (i) Dollar value of disallowed
                                          0           $0                  $0
         costs; and

     (ii) Dollar value of costs not
                                          0           $0                  $0
          disallowed.

  D. For which no management
     decision has been made by the        0           $0                  $0
     end of the reporting period.

  E. Reports for which no
     management decision was
                                          0           $0                  $0
     made within 6 months of
     issuance.




48TH SEMIANNUAL REPORT TO CONGRESS            15      APRIL 1, 2012 – SEPTEMBER 30, 2012
  TABLE IV - Recommendations that Funds Be Put
  to Better Use

                                                   Number of           Dollar Value
                                                    Reports          (In Thousands)
  A. For which no management decision has
     been made by the commencement of the             0                      $0
     reporting period.

  B. Which were issued during the reporting
                                                      0                      $0
     period.

                           Subtotals (A+B)            0                      $0

  C. For which a management decision was
                                                      0                      $0
     made during the reporting period.

     (i) Dollar value of recommendations that
                                                      0                      $0
         were agreed to by management; and

     (ii) Dollar value of recommendations that
                                                      0                      $0
          were not agreed to by management.

  D. For which no management decision has
     been made by the end of the reporting            0                      $0
     period.

  E. Reports for which no management
     decision was made within 6 months of             0                      $0
     issuance.




48TH SEMIANNUAL REPORT TO CONGRESS            16          APRIL 1, 2012 – SEPTEMBER 30, 2012
  APPENDIX A - Acronyms and Abbreviations
   ARB                     Arbitration (Type of FLRA case)

   CIGIE                   Council of Inspectors General on Integrity and Efficiency

   DJHPM                   Dembo, Jones, Healy, Pennington & Marshall, P.C.

   FFMIA                   Federal Financial Management Improvement Act

   FISMA                   Federal Information Security Management Act of 2002

   FLRA                    Federal Labor Relations Authority

   FOIA                    Freedom of Information Act

   FSLRB                   Foreign Service Labor Relations Board

   FY                      Fiscal Year

   IG                      Inspector General

   NEG                     Negotiability (Type of FLRA case)

   OGC                     Office of the General Counsel

   OIG                     Office of Inspector General

   OMB                     Office of Management and Budget

   P.L.                    Public Law

   REP                     Representation (Type of FLRA Case)

   STATUTE                 Federal Service Labor-Management Relations Statute

   ULP                     Unfair Labor Practice (Type of FLRA case)



48TH SEMIANNUAL REPORT TO CONGRESS         17            APRIL 1, 2012 – SEPTEMBER 30, 2012
  APPENDIX B - Definitions of Terms Used
   Disallowed Cost       A questioned cost that management, in a management
                         decision, has sustained or agreed should not be charged to the
                         Government.

   Final Action          The completion of all actions that management has concluded,
                         in its management decision, are necessary with respect to the
                         findings and recommendations. If management concluded
                         that no actions were necessary, final action occurs when
                         management decision is issued.

   Management            An evaluation by management of the findings and
   Decision              recommendations included in an audit report and the
                         issuance of a final decision by management concerning its
                         response to such findings and recommendations, including
                         actions concluded to be necessary.

   Questioned Cost       A cost questioned because of: (a) an alleged violation of a law,
                         regulation, contract, or other agreement or document
                         governing the expenditures of funds; (b) a finding that, at the
                         time of the audit, such cost is not supported by adequate
                         documentation; or (c) a finding that the expenditure of funds
                         for the intended purpose is unnecessary or unreasonable.

   Recommendation        A recommendation that funds could be used more efficiently if
   That Funds Be Put     management took actions to complete the recommendation,
   To Better Use         including: (a) reduction in outlays; (b) deobligation of funds;
                         (c) costs not incurred by implementing recommended
                         improvements related to the operations of the establishment,
                         a contractor; (d) avoidance of unnecessary expenditures noted
                         in preaward reviews of contract; or (e) any other savings
                         which are specifically identified.

   Unsupported Cost      A cost questioned because, at the time of the audit, such cost
                         is not supported by adequate documentation.




48TH SEMIANNUAL REPORT TO CONGRESS           18            APRIL 1, 2012 – SEPTEMBER 30, 2012
CONTACTING THE OFFICE OF INSPECTOR GENERAL


                         FLRA.GOV/OIG

       If you believe an activity is wasteful, fraudulent, or
       abusive of Federal funds, contact the:

                                  HOTLINE
                                (800)331-3572
                         http://www.flra.gov/oig-hotline
       email: oigmail@flra.gov
       call:     (202)218-7970
       Fax:      (202)343-1072
       write to: 1400 K Street, N.W. Suite 250, Washington, D.C. 20424




The complainant may remain confidential; allow their name to be used; or anonymous. If the
complainant chooses to remain anonymous, FLRA OIG cannot obtain additional information
on the allegation, and also cannot inform the complainant as to what action FLRA OIG has
taken on the complaint. Confidential status allows further communication between FLRA OIG
and the complainant after the original complaint is received. The identity of complainants is
protected under the provisions of the Whistleblower Protection Act of 1989 and the Inspector
General Act of 1978. To learn more about the FLRA OIG, visit our Website at
http://www.flra.gov/oig
